             SEMIANNUAL
             REPORT

             October 1, 2013 –
             March 31, 2014




April 2014                  OIG-14-3SP
                                               United States Government Accountability Office




Memorandum
Date:           April 30, 2014

To:             Comptroller General Gene L. Dodaro

From:           Inspector General Adam R. Trzeciak


Subject:        Semiannual Report—October 1, 2013, through March 31, 2014

I am submitting this report in accordance with Section 5 of the Government Accountability
Office Act of 2008 (GAO Act). 1 The report summarizes the activities of the Office of
Inspector General (OIG) for the first reporting period of fiscal year 2014.

The act requires that you transmit the report to Congress within 30 days after receipt. Your
transmittal should also include any comments you consider appropriate.

During this reporting period, OIG completed fieldwork on one audit and continued or began
fieldwork on two additional audits. OIG closed four investigations and opened three
investigations. OIG also processed 185 hotline complaints, which generally involved other
federal and state programs. I continued to brief new GAO employees on the audit and
investigative functions of GAO’s OIG. In addition, OIG staff remained active in the OIG
community through participation on Council of Inspectors General on Integrity and Efficiency
committees and working groups. Details of these activities and other OIG accomplishments
are provided below.

I appreciate management’s support and thank GAO’s Executive Committee, managers, and
staff for their cooperation during our reviews. OIG’s team of dedicated professionals remains
committed to helping GAO improve the services it provides for American taxpayers. The
accomplishments reported in this letter are the direct result of their efforts.




1
31 U.S.C. § 705 (2012).



                                                              OIG-14-3SP Semiannual Report
INTRODUCTION


THE UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE


GAO is the audit, evaluation, and investigative arm of the Congress. It supports
congressional oversight by (1) auditing agency operations to determine whether federal
funds are being spent efficiently and effectively; (2) investigating allegations of illegal and
improper activities; (3) reporting on how well government programs and policies are meeting
their objectives; (4) performing policy analyses and outlining options for congressional
consideration; and (5) issuing legal decisions and opinions, such as bid protest rulings and
reports on agency rules.


THE OFFICE OF INSPECTOR GENERAL


Established as a statutory office by the GAO Act, GAO’s OIG independently conducts
audits, evaluations, and other reviews of GAO programs and operations and makes
recommendations to promote the agency’s economy, efficiency, and effectiveness. OIG also
investigates allegations of fraud, waste, abuse, mismanagement, and other serious
problems in GAO's programs and operations, including the possible violation of any law or
regulation.




2                                                              OIG-14-3SP Semiannual Report
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL


AUDITS


We completed fieldwork on an audit of GAO’s undercover funds and provided management
with our draft report for comment. The objective of this audit was to determine the
effectiveness of controls over GAO’s undercover funds. We continued to perform fieldwork
on an audit of GAO’s Federal Employees’ Compensation Act program, and we began an
audit of GAO’s privacy program.


COMPLAINTS AND INVESTIGATIONS


The OIG’s hotline continues to be our primary source of complaints or information for
identifying suspected fraud and other problems, abuses, and deficiencies relating to the
administration of GAO’s programs and operations. As shown in table 1, we processed 185
hotline complaints during this 6-month reporting period. Of those, 3 complaints led to OIG
investigations.


Table 1: Summary of OIG Hotline Complaint Activities, October 1, 2013, through March 31, 2014

 Hotline complaints open at the start of the reporting period                                                            33
 New hotline complaints received this reporting period                                                                  152
 Total hotline complaints                                                                                               185
 Complaints closed (referred to other GAO offices)                                                                            4
                                             a
 Complaints closed (referred to FraudNet )                                                                                    9
 Complaints closed (insufficient information/no basis)                                                                  124
 Complaints closed (no jurisdiction and referred to appropriate agency OIG or other
 law enforcement offices)                                                                                                33
 Complaints closed (converted to investigations)                                                                              3
 Total hotline complaints open at the end of the reporting period                                                        12
Source: OIG.
a
 FraudNet is a government-wide hotline operated by GAO staff that receives complaints of fraud, waste, and abuse of federal
funds spent by other federal agencies.



Table 1 identifies 124 complaints that were closed due to insufficient information or no basis
upon which to open an investigation. These complaints generally involved other federal and
state programs, not GAO programs and operations. We report them here because, typically,
the OIG spends considerable time evaluating the issues contained in a complaint in order to
redirect the complainant to the appropriate administrative or law enforcement organization
with proper jurisdiction over the allegations in the complaint.




3                                                                                  OIG-14-3SP Semiannual Report
As shown in table 2, there were 17 open investigations during this reporting period. At the
end of the reporting period, 13 investigations remained open.


Table 2: Summary of OIG Investigations, October 1, 2013, through March 31, 2014

 Investigations open at the start of the reporting period                                     14
 New investigations initiated this reporting period                                           3
 Total investigations                                                                         17
 Investigations closed this reporting period                                                  4
 Total investigations open at the end of the reporting period                                 13
Source: OIG.




We closed an investigation involving an employee’s unauthorized release of nonpublic
information. The employee, a manager, leaked a document regarding a congressional
request for GAO work. Our investigation identified the source of the leak, and the employee
admitted making the unauthorized disclosure. We referred the matter to agency
management for administrative action during the prior reporting period. In this reporting
period, GAO management imposed a 5-day suspension on the employee.


We also closed an investigation regarding an allegation of an employee’s time and
attendance abuse. The investigation determined that the employee, a manager, did not work
192 hours of claimed and paid work time during a 13-month period in 2012 and 2013. This
represented more than $12,000 in false claims. The Department of Justice declined
prosecution, and we referred our investigative findings to GAO management for appropriate
action. The employee resigned before management’s final action.


We closed the remaining investigations after OIG staff determined that the allegations could
not be substantiated.


OTHER ACTIVITIES


ACTIVITIES WITHIN GAO


The IG discusses the duties, responsibilities, and authorities of the GAO OIG with
participants in GAO’s new employee orientation program. The IG’s Counsel collaborated
with GAO’s Learning Center to revise the agency’s fraud awareness course for agency staff.
Furthermore, OIG processed one Freedom of Information Act request, which we addressed
in accordance with procedures set forth in 4 C.F.R. Part 81.




4                                                                   OIG-14-3SP Semiannual Report
ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY


OIG participated in the Council of Inspectors General on Integrity and Efficiency (CIGIE), a
council of federal inspectors general that promotes collaboration on integrity, economy, and
efficiency issues that transcend individual agencies. The IG and Deputy IG regularly
participated in monthly CIGIE meetings, quarterly Legislative Branch Inspectors General
meetings, and periodic meetings with other OIGs designed to address issues common to
smaller OIGs. The Deputy IG participated in quarterly Deputy IG meetings. The Assistant
Inspector General for Investigations (AIGI) regularly participated in quarterly CIGIE
Investigations Committee and AIGI Committee meetings. The IG Counsel also participated
in monthly Council of Counsels to Inspectors General meetings.


AUDIT PEER REVIEW ACTIVITIES



Government Auditing Standards require that each organization performing audits in
accordance with these standards must have an external peer review. The objectives of a
peer review are to determine whether an effective quality control system has been
established in the office and if policies, procedures, and applicable government auditing
standards are followed. Peer reviews must be performed at least once every 3 years by
reviewers independent of the audit organization being reviewed. The OIG is scheduled for a
peer review in fiscal year 2015.


ACTIVITIES WITHIN THE UNITED STATES COMMISSION ON CIVIL RIGHTS



The Consolidated and Further Continuing Appropriations Act of 2012 2 designated the
Inspector General of the Government Accountability Office to serve as the Inspector
General of the U.S. Commission on Civil Rights (Commission). The Inspector General’s
statutory authority over the Commission ends in 2014. 3


GAO ACTIONS ON OIG RECOMMENDATIONS


Timely resolution of outstanding audit recommendations continues to be a priority for both
our office and the agency. Table 3 presents the status of actions planned and taken by GAO
in response to open recommendations, as of March 31, 2014.




2
    Pub. L. No. 112-55, 125 Stat. 552, 628 (Nov. 18, 2011).
3
    Consolidated Appropriations Act of 2014, Pub. L. No. 113-76, 128 Stat. 5 (Jan. 17, 2014).


5                                                                             OIG-14-3SP Semiannual Report
Table 3: Status of Agency Actions on Open Recommendations, as of March 31, 2014

 OIG audit reports                Open recommendations                           Status of actions planned and
                                                                                 taken by GAO in response to the
                                                                                 recommendations
 Human Capital: Opportunities     Incorporate the use of recruitment,            GAO issued its Human Capital
 Exist to Strengthen Controls     relocation, and retention incentives into      Strategic Plan 2013-2015 in July
 over Recruitment, Relocation,    GAO’s strategic human capital planning         2013. The updated plan identified
 and Retention Incentives, OIG-   to specify a plan for their use, the results   the use of incentives to recruit and
 12-5 (Aug. 28, 2012)             GAO expects to achieve, and the                retain staff with critical skills as
                                  measures that will be used to assess           initiatives intended to support the
                                  their effectiveness.                           agency’s recruitment and hiring
                                                                                 goals. GAO is continuing efforts to
                                                                                 develop an action plan, which
                                                                                 specifies (1) how the agency intends
                                                                                 to use recruitment, relocation, and
                                                                                 retention incentives in support of its
                                                                                 recruitment and hiring goals, (2) the
                                                                                 results the agency expects to
                                                                                 achieve, and (3) the measures that
                                                                                 it will use to gauge the effectiveness
                                                                                 of these incentives. GAO expects to
                                                                                 complete its action plan by June 30,
                                                                                 2014.
 Security Clearances: Actions     Establish and implement detailed               GAO is in the final phase of
 Needed to Strengthen             procedures that define consistent criteria     establishing consistent criteria and a
 Controls over Top Secret         and processes to ensure that the               process for evaluating a position’s
 Security Clearance               agency’s position designation and              need for a security clearance.
 Requirements, OIG-13-3           position sensitivity policies are carried      Specifically, GAO is developing and
 (Sept. 27, 2013)                 out.                                           implementing a standard form that is
                                                                                 intended to document unit heads’
                                                                                 (1) assessment using consistent
                                                                                 criteria of whether a given position
                                                                                 requires access to classified
                                                                                 information and (2) detailed
                                                                                 justifications explaining an
                                                                                 employee’s need for a security
                                                                                 clearance.
                                  Establish procedures to ensure that            GAO is updating and revising its
                                  decisions to grant top secret security         personnel security program policy
                                  clearances are grounded in written             and directive with detailed
                                  justifications.                                procedures that define the
                                                                                 consistent criteria and process for
                                                                                 evaluating and documenting a
                                                                                 position’s need for a security
                                                                                 clearance.




Source: OIG.




6                                                                                OIG-14-3SP Semiannual Report
                      To report fraud and other serious problems, abuses, and deficiencies
Reporting Fraud,      relating to GAO programs and operations, do one of the following. (You
Waste, and Abuse in   may do so anonymously.)

GAO’s Internal        •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
Operations                available 24 hours a day, 7 days a week.

                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s website:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony
